                  United States Department of the Interior
                                O FF ICE OF INSPECTOR GENERAL
                                          Central Regiorl
                                     134 Union Blvd .• Suite 510
                                     Lakewood, Colorado BOnS



                                                                   Report No. X-VS-BIA-0012-2009
                                                                                  August 31, 2009


Memorandwn

To:            Assistant Secretary for Indian Affairs
               Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)

From:          JaCkROUchr/~
              Regional A'Udit Manager

Subject:      Verification Review of the Three Recommendations Contained in the Audit
              Report Titled, "Bureau of Indian Affairs, Use of Facilities Improvement and
              Repair Funds" (Report No. C-IN-BIA-0015-2004)

      The Office of Inspector General (OIG) has completed a verification review of the three
recommendations from the subject audit report. The objective of this review was to determine
whether the recommendations were implemented as reported by the Office of Financial
Management. Based on our review, we concluded that all three recommendations were
implemented. The results of our review are summarized below.

Background

        Our August 2005 audit report "Bureau of Indian Affairs, Use of Facilities Improvement
and Repair Funds" (No. C-IN-BrA-0015-2004) made three recommendations to the Assistant
Secretary for Indian Affairs (AS-LA) to address the Bureau of Indian Affairs' (BrA) questionable
use of facilities improvement and repair (FI&R) funds for new school construction. The Acting
AS-lA's response to the draft audit report concurred with Recommendations 1 and 2, but did not
provide all of the information necessary to consider the recommendations resolved. The
response did not concur with Recommendation 3. After granting multiple verbal extensions to
the BrA to finalize its response, OIG referred all three recommendations to Assistant Secretary
for Policy, Management and Budget on March 13, 2006, as unresolved.

      On May 29, 2007, the Office of Financial Management (PFM) reported to the OIG that
BrA had completed the actions required to implement Recommendations 1 and 2 and that these
recommendations were closed and that PFM would continue to track Recommendation 3. On
May 22, 2008, PFM reported to the OIG that the BrA provided docwnentation to sufficiently
                                                                                                        - '- ' ; : = = = -




implement Recommendation 3 and, therefore, closed the recommendation and the report in the
Departmental tracking system.



Scope and Methodology

        The scope of our review was limited to obtaining sufficient documentation to evaluate the
actions taken by BIA to support implementation and closure of the recommendations by PFM.
We also interviewed BIA personnel to gather additional information and to seek clarification on
some of the information that BIA provided us.                                                  .

       We did not perform site visits or conduct detailed audit fieldwork to determine whether
the underlying deficiencies that were initially identified in the original audit report have actually
been conected. As a result, this review was not conducted in accordance with the Government
Auditing Standards issued by the Comptroller General of the United States or the Quality
Standards for Inspections, issued by the President's Council on Integrity and Efficiency.

Results of Review

We concluded that the three recommendations contained in the report had been implemented.

Recommemkltion 1: Discontinue the practice of using FI&Rfunds for school construction at
BIA-operated schools.

        In its April 2004 response to our report, BIA' s Office of Facilities Management and
Construction (OFMC) stated that they had discontinued the practice of using FI&R funds for
replacement school construction at BIA-operated schools. Beginning in fiscal year 2007, BIA
created a new program element to fund the replacement of individual buildings on school
campuses. The Replacement Facility Construction (RFC) program element will fund the
replacement of individual buildings when the repair of existing facilities is not economically
feasible or an entire new campus is not needed. The FI& R program funds will primarily focus
on addressing health and safety, code and standard deficiency issues.

       The BIA Chief, Division of PI arming and Programming, OFMC provided a schedule of
RFC projects and FI&R projects for fiscal years 2007 and 2008. According to this schedule,
there have been no new replacement school construction projects using FI&R funds; only repairs
and improvements to the existing school buildings. We therefore conclude that this
recommendation is implemented.

Recommendation 2: Discontinue the practice offunding school construction with FI&R
funds at grant and contract schools without the required 25 percent funding contribution.

        In its April 2004 response to our report, OFMC stated that they had discontinued the
practice of using FI&R funds for replacement school construction at tribally operated schools
unless the tribe was willing to provide at least the required one-quarter cost share.
       The BIA Chief, Division of Planning and Programming, OFMC provided a schedule of
RFC projects and FI&R projects for fiscal years 2007 and 2008. According to this schedule,
there have been no new replacement school construction projects at tribally operated schools
using FI&R funds; only repairs and improvements to the existing school buildings. We
therefore conclude that this recommendation is implemented.

Reconunendation 3: Determine whether BIA has the authority to collect the required 25
percent cost share contributions from Indian tribes that used FI&Rfunds for replacement
school construction. If BIA has the authority, seek payment of the $10.2 million.

        In response to OIO's request, BIA obtained and submitted a written Solicitor's opinion to
PFM as its support for not recouping the one-fourth cost share from past construction contracts
that were funded with FI&R monies. The Office of the Solicitor provided two memorandums
which supported BIA's decision not to collect the one-fourth share on past FI&R construction
contracts. According to the Solicitor's memos, "there is no statutory or regulatory authority by
which BIA could seek to recoup the one-fourth cost share. . .. The Department chose not to
require the tribes to contribute to the cost of the construction projects as is evidenced by the
Budget Justifications to Congress. Regardless of whether OFMC had the authority to authorize
grants without tribal cost-sharing, they may not attempt to impose a cost-sharing requirement
after the fact.

      Based on the information provided in the Solicitor's memos, we conclude that this
recommendation in implemented.

Conclusion

We communicated the results of this review to PFM and to the AS-IA Director, Internal
Evaluation and Assessment on July 21, 2009. We consider Recommendations 1 through 3 fully
implemented and no further action is required . If you have any questions concerning this
memorandum, please contact me at (303) 236-9243.




cc:    Director, Office of Facilities, Environmental and Cultural Resources
       Audit Liaison, Indian Affairs
       Associate Director, Office of Financial Management
       Focus Leader for Management Control and Audit Follow-up
